           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


         ESTABLISHMENT OF
        DEDICATED ACCOUNTS

      May 2009    A-13-08-28122




  EVALUATION
    REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   May 26, 2009                                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Establishment of Dedicated Accounts (A-13-08-28122)



        OBJECTIVE
        Our objective was to determine whether Supplemental Security Income (SSI)
        underpayments were deposited in dedicated accounts in accordance with Social
        Security Administration (SSA) policy.

        BACKGROUND

        Some individuals cannot manage or direct the management of their finances because of
        their age or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’
        payments.1 A representative payee may be an individual or an organization. SSA
        selects representative payees for SSI recipients when representative payments would
        serve the individual’s interests.2

        Public Law 104-193 amended the Social Security Act by requiring that certain
        underpayments due SSI recipients under age 18 (child) be placed in dedicated
        accounts.3 A dedicated account must be established when the applicable past-due SSI
        payment exceeds six times the applicable Federal Benefit Rate (FBR) 4 plus any State
        supplemental benefit payable. Dedicated accounts are separately maintained from
        other accounts and may only be used for certain expenditures. Only certain SSI
        underpayments may be deposited into dedicated accounts. The representative payee

        1
            Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
        2
         The SSI program provides payments to individuals who have limited income and resources and who are
        either age 65 or older, blind or disabled (20 C.F.R. § 416.110).
        3
         The Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Public Law 104-193,
        Sec. 213, August 21,1996; see also Social Security Act § 1631(a)(2)(F)(i), 42 U.S.C. § 1383(a)(2)(F)(i).
        4
         The FBR is the maximum monthly SSI payable for a given year. For example, for Fiscal Year 2007, the
        FBR was $623 per month.
Page 2 - The Commissioner


must establish the dedicated account before the release of the past-due benefits
(underpayments). The Agency will direct deposit the underpayments into this account.

Representative payees can use these funds for the child’s allowable expenses.5
Allowable expenses include medical treatment, education, job skills training and
expenses related to the child’s impairment, such as special equipment, personal needs
assistance, housing modification, therapy and other items or services SSA determines
are appropriate. Generally, the funds may not be used for non-impairment-related
expenses, including food, clothing, housing and personal items. However, the Agency
may approve the use of dedicated account funds for basic living expenses to prevent a
child from becoming homeless or malnourished.

We identified 2,105 payments made to children under age 18 from one segment of the
Agency’s Supplemental Security Record (SSR). These children had underpayments
that exceeded six times the applicable FBR. The Agency issued the payments between
September 1996 and June 2007 and had not placed these payments in dedicated
accounts. See Appendices B and C for additional information regarding our
methodology and estimation results.

RESULTS OF REVIEW

The Agency made significant improvements in establishing dedicated accounts for
children. Since 1998, we estimate there has been a substantial decline in SSI
underpayments not placed in dedicated accounts. However, SSA staff did not always
deposit these underpayments in a dedicated account.

We asked Agency staff to analyze 29 underpayments made to children to determine
why dedicated accounts were not established. Agency staff indicated dedicated
accounts for 22 of the 29 underpayments should have been established. Of the
22 underpayments not placed in dedicated accounts, 14 were due to noncompliance
with policy and procedures. The other eight should have been deposited into dedicated
accounts but were erroneously issued to new representative payees as conserved
funds,6 which do not require the establishment of a dedicated account.

For the remaining seven underpayments, Agency staff paid four payments into
dedicated accounts. However, because of staff recording errors, the SSR did not show
that Agency staff issued the payment to a dedicated account. Finally, the dedicated
account rules did not apply for three underpayments.




5
    Social Security Act § 1631(a)(2)(F)(ii), 42 U.S.C. § 1383(a)(2)(F)(ii).
6
 POMS, GN 603.001, indicates that any remaining benefits must be conserved or invested for the
beneficiary.
Page 3 - The Commissioner


SIGNIFICANT DECLINE IN CHILDREN’S SSI UNDERPAYMENTS NOT PLACED IN
DEDICATED ACCOUNTS

The Agency has made significant improvements in the establishment of dedicated
accounts for children. Based on data we extracted from the SSR, we estimate in 1998,
there were approximately 12,980 underpayments made to children that met the
requirement for, but were not deposited in, dedicated accounts. For 2006, we estimate
there were approximately 1,080 underpayments that met the requirement for which
dedicated accounts were not established (see Table 1).

             Table 1: Decline in the Estimated SSI Underpayments to Children
                             Not Placed In Dedicated Accounts
                     14000   12980

                     12000

                     10000

                      8000

                      6000
                                      4100
                      4000                   2800    2380   2540
                                                                   1860    1620   1920
                      2000                                                               1080

                         0
                             1998     1999   2000    2001   2002   2003    2004   2005     2006



According to Agency staff, over this period, while the number of SSI underpayments not
placed in dedicated accounts declined, the number of dedicated accounts established
increased. There were 31,481 dedicated accounts in 2003, which increased to
44,471 in 2006 (see Table 2).

Table 2: Increase in the Number of Dedicated Accounts Established for Children7
                     50000
                                                                                    44471
                     45000
                                                                   38886
                     40000
                     35000       31481              31465
                     30000
                     25000
                     20000
                     15000
                     10000
                      5000
                         0
                                    2003            2004           2005             2006



7
    Data were provided by SSA. Data before 2003 were not available.
Page 4 - The Commissioner


We attribute SSA’s improvements in establishing dedicated accounts to the
implementation of an underpayment diary, installment payments and a prepayment
review. To ensure the underpayment is paid to the child timely, SSA uses an
underpayment diary that alerts Agency staff to process the underpayment. Installment
payment provisions apply to certain underpayments. Also, certain underpayments
require that the field office complete an underpayment review.

PAYMENT ERRORS TO SSI CHILDREN FOUND

To determine why some recent underpayments were not deposited in a dedicated
account, we asked Agency staff to analyze 29 underpayments paid between January
and June 2007. For 22 (76 percent) of the 29 underpayments reviewed, staff indicated
dedicated accounts totaling $121,390 should have been established. Based on these
results, we estimate approximately $9.7 million in dedicated accounts should have been
established for approximately 1,760 underpayments during Calendar Years 2007 and
2008.8 SSA staff reported the following.

 Fourteen payments totaling $82,373 were made in error due to noncompliance with
  SSA’s policy and procedures. The dedicated account rules were not applied, and
  dedicated accounts were not established. SSA staff indicated they made some field
  offices aware of the need for training on the criteria for applying the dedicated
  account rules. For Calendar Years 2007 and 2008, we estimate Agency staff did not
  issue to dedicated accounts about $6.6 million for approximately
  1,120 underpayments because staff did not comply with SSA’s policies and
  procedures.

 Eight payments totaling $39,017 were made because SSA erroneously reissued
  dedicated account funds to new representative payees. These funds should have
  been re-deposited in dedicated accounts. However, Agency staff coded these funds
  as conserved funds, which do not require deposit in a dedicated account. To prevent
  these instances from recurring, SSA could establish a dedicated account remittance
  code to record the need to reestablish a dedicated account when SSA staff reissues
  dedicated account funds received from one representative payee to another. SSA
  staff agreed that this would help prevent this issue from recurring. For Calendar
  Years 2007 and 2008, we estimate about $3.1 million in dedicated accounts was not
  established for approximately 640 underpayments due to coding of remitted
  dedicated account funds as conserved funds.

CODING ERRORS AND OTHER ISSUES

For the remaining seven underpayments (24 percent) reviewed, SSA staff indicated
coding errors and other issues were detected. Specifically, Agency staff reported the
following.


8
    See Appendix C for estimation methodology.
Page 5 - The Commissioner


 Four payments were deposited in dedicated accounts. However, SSA staff did not
  code the payments on the SSR as having been paid into a dedicated account as they
  should have.

 Two payments were made after the child’s monthly SSI payments had been stopped.
  Since the recipient was no longer in pay status, the dedicated account rules did not
  apply.

 One payment did not meet the requirement for depositing funds into a dedicated
  account because it was less than six times the applicable FBR. The underpayment
  also included a current month’s benefit payment.

CONCLUSION AND RECOMMENDATIONS
The Agency has made significant improvement since 1998 in establishing dedicated
accounts for children when they are required. The Agency improved its controls to
identify underpayments that require a dedicated account. However, underpayments
requiring a dedicated account were not always identified. Our review of
29 underpayments from January to June 2007 showed that polices and procedures
were not always followed. For 22 of the 29 underpayments reviewed, dedicated
accounts should have been established.

To further improve controls over establishing dedicated accounts for children, we
recommend SSA:

1. Remind staff of policies and procedures for dedicated accounts, including how to
   properly record the dedicated account on the SSR.

2. Consider establishing a dedicated account remittance code to indicate when funds
   held in a dedicated account are reissued from one representative payee to another.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.



                                               S
                                                   Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Estimation Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
CY       Calendar Year
FBR      Federal Benefit Rate
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we

 Reviewed applicable Federal laws and sections of Social Security Administration
  regulations, policies and procedures.

 Identified 2,771 underpayments made to children under age 18 from 1 randomly
  selected segment of the Supplemental Security Record. The underpayments were
  for $2,5001 or more issued between September 1996 and June 2007 that were not
  placed into a dedicated account. Of these 2,771 underpayments, 2,105 were for
  amounts that met or exceeded 6 times the applicable Federal Benefit Rate (FBR).

 Randomly selected 50 of the 2,105 underpayments to determine whether the dollar
  threshold requirements were met for depositing funds in dedicated accounts. We
  determined all 50 met the requirement for estimation purposes. The results were
  used to estimate the underpayments that met the requirement for depositing funds
  into dedicated accounts for all 20 segments of the Supplemental Security Record
  (see Appendix C).

 Provided SSA 29 underpayments made between January and June 2007 to
  determine why a dedicated account was not established.

We performed our review between July and November 2008 in Baltimore, Maryland.
We tested the data obtained for our review and determined them to be sufficiently
reliable to meet our objective. We conducted our review in accordance with the
President’s Council on Integrity and Efficiency's Quality Standards for Inspections.2




1
 To ensure all payments during the stated time period met or exceeded six times the applicable yearly
FBR, we identified all payments in excess of $2,500. Six times the 1996 FBR of $470, the earliest year of
our stated time period, exceeds $2,500. The yearly FBR has increased every year since. Therefore, we
ensured all payments in our population met or exceeded six times the applicable yearly FBR threshold.
2
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.
                                                                               Appendix C

Estimation Results
Our objective was to determine whether Supplemental Security Income underpayments
were deposited in dedicated accounts in accordance with Social Security Administration
policy. To accomplish our objective, we identified 2,105 underpayments made to
children under age 18 from 1 randomly selected segment of the Agency’s Supplemental
Security Record (SSR) that exceeded 6 times the applicable Federal Benefit Rate. The
Agency issued the payments between September 1996 and June 2007, and SSA staff
had not placed these payments in dedicated accounts.

Of the 2,105, we randomly selected and reviewed 50 underpayments to determine
whether the payments met the dollar threshold requirements for depositing funds into
dedicated accounts. All payments we reviewed met the dollar threshold requirement.
We used these results to conclude all underpayments we identified from the SSR
segment met the dollar threshold requirements for depositing funds into dedicated
accounts (see Table1). We multiplied these results by 20 to get the estimated
underpayments that should had been, but according to SSA’s records, were not placed
into dedicated accounts for the stated periods (see Table 2).

           Table 1: Underpayments for One Randomly Selected SSR Segment
                     Year                Number of Payments Made to Children
          September to December 1996                      17
                     1997                                496
                     1998                                649
                     1999                                205
                     2000                                140
                     2001                                119
                     2002                                127
                     2003                                 93
                     2004                                 81
                     2005                                 95
                     2006                                 54
             January to June 2007                         291
                     Total                             2,105

1
  We estimate about $9.7 million in dedicated accounts should have been established for about
1,760 underpayments during Calendar Years (CY) 2007 and 2008. For 22 (76 percent) of the
29 underpayments reviewed, Agency staff indicated dedicated accounts totaling $121,390 should have
been established for the period January through June 2007. Assuming similar results during the second
half of CY 2007, we estimate for the 1 segment of the SSR under review that a total of $242,780 in
dedicated accounts should have been established for 44 underpayments. Therefore, we estimate
$4,855,600 in dedicated accounts should have been established for approximately 880 underpayments in
all 20 segments of the SSR during CY 2007. Assuming similar results, we estimate another $4,855,600
in dedicated accounts should have been established for approximately 880 underpayments in all
20 segments of the SSR during CY 2008. For the 2-year period, we estimate a total of $9,711,200 in
dedicated accounts should have been established for approximately 1,760 underpayments.


                                                C-1
                       Table 2: Estimate for 20 Segments of SSR
                    Year                  Number of Payments Made to Children2
         September to December 1996                        340
                    1997                                 9,920
                    1998                                12,980
                    1999                                 4,100
                    2000                                 2,800
                    2001                                 2,380
                    2002                                 2,540
                    2003                                 1,860
                    2004                                 1,620
                    2005                                 1,900
                    2006                                 1,080
            January to June 2007                           580
                    Total                               42,100




2
 We computed the estimated number of recipients by multiplying the number of recipients in 1 segment
by 20 (there are 20 segments in the SSR).




                                                 C-2
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      April 27, 2009                                                       Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Establishment of Dedicated Accounts”
           (A-13-08-28122)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“ESTABLISHMENT OF DEDICATED ACCOUNTS” (A-13-08-28122)

Our responses to your specific recommendations are as follows.

Recommendation 1

Remind staff of policies and procedures for dedicated accounts, including how to properly record
the dedicated account on the Supplemental Security Record (SSR).

Comment
We agree. By the end of fiscal year 2009, we will provide reminders to the staff on the policy
and procedures for establishing and recording dedicated accounts on the SSR.

Recommendation 2
Consider establishing a dedicated account remittance code to indicate when funds held in a
dedicated account are reissued from one representative payee to another.

Comment
We agree. A remittance code for returned dedicated account funds will be beneficial in reissuing
the funds to a new representative payee and dedicated account. Once resources are available, we
will consider the necessary system modifications to create a remittance code specifically for
dedicated account funds.




                                              D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley Todd, Director, Evaluation Division

   Randy Townsley, Audit Manager

Acknowledgments

In addition to those named above:

   Alan Carr, Auditor-in-Charge

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-13-08-28122.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
